                                                                Issue Date
                                                                        March 22, 2012
                                                                 
                                                                Audit Report Number
                                                                       2012-DE-1003




TO:         LeRoy Brown, Director, Denver Office of Community Planning and
              Development, 8AD


FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 8AGA

SUBJECT: A Hotline Complaint Against Colorado Coalition for the Homeless, Denver, CO,
           Regarding Weaknesses in Its Controls Over the Homelessness Prevention and
           Rapid Re-Housing Program Could Not Be Supported


                                   HIGHLIGHTS

 What We Audited and Why


             We audited allegations made against the Colorado Coalition for the Homeless in a
             hotline complaint received by the Office of Inspector General (OIG) hotline. The
             complaint contained allegations regarding control weaknesses, resulting in
             noncompliance with Homelessness Prevention and Rapid Re-Housing Program
             (HPRP) requirements. The objective of our review was to determine whether the
             allegations of weaknesses in the Coalition’s controls over its HPRP funds,
             resulting in noncompliance with HPRP requirements, could be substantiated.

 What We Found


             We did not find evidence to support the allegations made against the Coalition
             regarding its controls over its HPRP functions. In general, we did not find
             evidence to support that the Coalition

                Management was not serious about controls,
              Had no hardcopy or electronic accounting reference material and did not
               provide adequate training,
              Did not complete accounting reconciliations properly or in a timely manner,
              Had insufficient controls to keep a manager from causing reports to be late
               and regulatory due dates to be missed repeatedly,
              Did not make disbursements accurately or in a timely manner and a manager
               separated and scattered disbursement documentation,
              Had to make duplicate general ledger corrections because a manager did not
               follow the account reclassification procedures,
              Had inadequate internal controls because it had unqualified personnel
               developing its policies,
              Used HPRP funds for other grants and did not track the funds, and
              Had inadequate segregation for cash-related tasks, giving managers the
               opportunity to convert returned checks for their own use.

What We Recommend


           This report contains no formal recommendations, and no further action is
           necessary.

Auditee’s Response


           We provided the draft report to the Coalition on March 03, 2012. The Coalition
           chose not to provide formal written comments or have an exit conference.




                                           2
                           TABLE OF CONTENTS

Background and Objective                                                          4

Results of Audit
   Allegations of Weaknesses in Controls Over HPRP Funds Could Not Be Supported   6

Scope and Methodology                                                             9

Internal Controls                                                                 11




                                           3
                       BACKGROUND AND OBJECTIVE

The Colorado Coalition for the Homeless is a 501(c)(3) nonprofit organization established in 1984.
The Coalition’s mission is to work collaboratively toward the prevention of homelessness and the
creation of lasting solutions for homeless and at-risk families, children, and individuals throughout
Colorado. The Coalition is governed by a 16-member board of directors.

The American Recovery and Reinvestment Act of 2009 established the Homelessness Prevention
and Rapid Re-Housing Program (HPRP). The program is designed to aid communities in providing
financial assistance and services to either prevent individuals and families from becoming homeless
or help those experiencing homelessness to be quickly re-housed.

The U.S. Department of Housing and Urban Development (HUD) used a formula to distribute the
HPRP funds to States and communities. The State of Colorado and the City and County of Denver
received HPRP grants. The Coalition signed two HPRP-funded agreements with the State of
Colorado and one with the City and County of Denver.

      Agreement with                    Agreement scope                          Agreement amount
 State of Colorado          Balance of State                                            $2,182,665
 State of Colorado          Metro Denver Homeless Initiative                            $5,037,663
 City and County of Denver Metro Denver                                                 $3,400,796
                      Total                                                            $10,621,124

This review of the Coalition originated with a hotline complaint containing allegations regarding
control weaknesses, resulting in noncompliance with HPRP requirements. The significant
allegations included that the Coalition

                  Management was not serious about controls,
                  Had no hardcopy or electronic accounting reference material and did not
                   provide adequate training,
                  Did not complete accounting reconciliations properly or in a timely manner,
                  Had insufficient controls to keep a manager from causing reports to be late
                   and regulatory due dates to be missed repeatedly,
                  Did not make disbursements accurately or in a timely manner and a manager
                   separated and scattered disbursement documentation,
                  Had to make duplicate general ledger corrections because a manager did not
                   follow the account reclassification procedures,
                  Had inadequate internal controls because it had unqualified personnel
                   developing its policies,
                  Used HPRP funds for other grants and did not track the funds, and
                  Had inadequate segregation for cash-related tasks, giving managers the
                   opportunity to convert returned checks for their own use.



                                                  4
Our objective was to determine whether the allegation of weaknesses in the Coalition’s controls
over its HPRP funds, resulting in noncompliance with HPRP requirements, could be
substantiated.




                                               5
                                 RESULTS OF AUDIT

Allegations of Weaknesses in Controls Over HPRP Funds Could Not Be
Supported

We reviewed the allegations contained in a hotline complaint of the Coalition regarding control
weaknesses, resulting in noncompliance with HPRP requirements. We found no evidence to
substantiate the allegations. The significant allegations made in the complaint and the results of
our review of those allegations are detailed below as follows:

      The complaint alleged that management was not serious about controls, as evidenced by
       its reliance on unqualified staff for internal control evaluations, failure to enforce key
       controls, and noncompliance with some controls. We found no evidence to support this
       allegation. We reviewed all pertinent written policies and procedures and interviewed
       pertinent staff members to obtain an understanding of the policies they had and the
       procedures they followed. Management had developed and implemented comprehensive
       policies and procedures, including HPRP-specific policies and procedures. Pertinent staff
       members were following the policies and procedures in performing HPRP functions. The
       written policies contained oversight controls performed by different levels of
       management. We reviewed the applicable policies and procedures and found that they
       complied with HUD requirements. We interviewed pertinent staff members, who said
       they were following the procedures. They had copies of the policies, which contained
       handwritten notes and other evidence of use. The documentation reviewed complied
       with HUD requirements and contained evidence of management review and approval.
       We found no evidence that management was not serious about controls.

      The complaint alleged that there was no hardcopy or electronic accounting reference
       material and that management relied on on-the-job training instead of providing staff with
       classroom training. We found no evidence to support this allegation. We reviewed all of
       the Coalition’s accounting policies and procedures and obtained training information
       during interviews with pertinent staff. The accounting department had detailed general
       and HPRP written policies and procedures. In addition to the policies and procedures
       developed by the Coalition, it had a detailed manual for the accounting computer system.
       The Coalition provided classroom training to staff during the implementation of HPRP.

      The complaint alleged that various reconciliations were not completed properly or in a
       timely manner. We found no evidence to support this allegation. We obtained and
       reviewed all of the general ledgers and supporting accounting reports for the period
       September 2009 through October 2011 and interviewed pertinent staff members. The
       accounting staff had documentation showing that the accounting records were regularly
       reconciled and the books of account balanced.

      The complaint alleged that controls were insufficient to keep one of the accounting
       management officials from causing reports to be late and regulatory due dates to be


                                                 6
    missed repeatedly. We found no evidence to support this allegation. We reviewed all of
    the required HPRP reports for the period August 1, 2009, through September 30, 2011,
    and interviewed pertinent staff members. The accounting staff did not prepare and
    submit the required HPRP reports. They provided the accounting information to the
    operations staff responsible for completing and submitting the reports to the State of
    Colorado and the City and County of Denver, which, in turn, submitted the required grant
    reports to the Federal system. The Federal reporting system reports and available State of
    Colorado and the City and County of Denver monitoring review information contained
    no indication of late submissions.

   The complaint alleged that one of the accounting management officials separated
    disbursement check copies from supporting documentation and scattered documentation
    and that disbursements were not made accurately or in a timely manner. The
    complainant stated that after weeks or months of accumulation, stacks of the
    disbursement documents were given to the complainant and another accounting staff
    member to organize and file. We found no evidence to support this allegation. We
    reviewed a sample of 20 vendor files containing 555 payment requests and found that
    disbursement documents were properly maintained and well organized. For the sample
    of vendor files reviewed, the checks were accurately prepared and issued in a timely
    manner. The accounting management official identified in the complaint approved the
    payment request before the check was processed but was not actively involved with the
    processing and filing of the disbursement checks and documents.

   The complaint alleged that one of the accounting management officials entered
    reclassifications without following the procedure of marking the entries on the face of the
    checks, which led to duplicate general ledger corrections. We found no evidence to
    support this allegation. We reviewed a sample of 555 payment requests and all the
    general ledgers for the period September 2009 through October 2011. The payment
    requests showed the classifications and any changes to the classifications and approvals.
    The general ledgers were organized by classification and showed any reclassifications.
    The payment requests were initialed by the person who entered the information into the
    accounting system, and we did not see the official’s initials on the requests reviewed.
    During interviews with pertinent staff members, they explained that operations staff
    determined the classification while processing and approving a payment request and
    accounting staff ensured that the classification was correct. If a classification error was
    later identified, an accounting supervisor worked with accounting staff, operations staff,
    and the subrecipient, as needed, to determine the correct classification, and the supervisor
    made the correction in the accounting system. Accounting management approved the
    reclassification request but did not enter the information into the system.

   The complaint alleged that internal controls were inadequate because one of the
    accounting management officials and other “unqualified personnel” were developing the
    policies. The complaint did not contain evidence to support that the staff members were
    unqualified. The complaint repeatedly stated that the staff developed policies without
    considering the risk but did not show evidence of how the policies were inadequate or
    increased the risk level. We found no evidence to support this allegation. We reviewed


                                             7
    all applicable policies and procedures and interviewed pertinent staff. The Coalition had
    comprehensive, well-developed policies and procedures for the accounting and
    operations functions of its HPRP. There were well-developed general accounting
    policies and procedures and policies and procedures specific to HPRP. We reviewed the
    policies and procedures and did not identify instances in which the policies and
    procedures did not meet Federal requirements.

   The complaint alleged that HPRP funds were used for other grants and that the funds
    were not tracked. We found no evidence to support this allegation. We reviewed a
    sample of 20 vendor files containing 555 payment requests totaling more than $2 million
    and did not identify HPRP funds used for other programs. We reviewed all of the general
    ledgers for the period September 2009 through October 2011 and all of the budget
    schedules maintained for each subrecipient and found that the Coalition was tracking
    HPRP funds by subrecipient and HPRP expense categories to ensure that funds were
    properly used and budgets were not exceeded.

   The complaint alleged inadequate segregation for cash-related tasks, specifically that the
    two top-level accounting managers opened all of the mail for the accounting department,
    which included returned checks that they could convert for their own use. We found no
    evidence to support this allegation. We reviewed the applicable policies and procedures
    and interviewed pertinent staff. The Coalition had effective segregation of cash
    functions. The mail was opened and logged by non-accounting staff. Payment requests
    went to operations staff for approval and then to accounting staff for approval and
    processing by at least four staff members. Returned checks were logged and then sent to
    an accounting supervisor, who, with the operations director, determined why the check
    was returned. If the check was correct but the mailing address wrong, they corrected the
    address and reissued the check. If the check was incorrect, the check was canceled, and
    an adjusting entry was prepared and approved by one of the accounting management
    officials before the supervisor made the entry into the system. During our review of
    disbursements and accounting records, we found no evidence of returned checks being
    improperly cashed.


Recommendations


           This report contains no recommendations, and no further action is necessary.




                                             8
                        SCOPE AND METHODOLOGY

We performed our onsite audit work at the auditee’s administrative office at 2111 Champa Street,
Denver, CO, between October and December 2011. The audit generally covered the period August
1, 2009, through September 30, 2011.

To accomplish our objective, we interviewed pertinent Coalition staff and reviewed

      Applicable Federal regulations and HUD requirements, including the Recovery Act and
       the revised HPRP notice, issued March 19, 2009;
      The Coalition’s policies and procedures relating to HPRP functions;
      The HPRP agreements between the Coalition and the State of Colorado and City and
       County of Denver;
      The HPRP agreements between the Coalition and its subrecipients;
      The Coalition’s accounting records, general ledgers, and disbursements records;
      The Coalition’s HPRP monitoring records; and
      The Coalition’s client files.

We selected and reviewed a sample of HPRP expenses incurred by subrecipients. We selected a
total of 20 vendor files, which contained 555 payment requests totaling more than $2 million or
19.4 percent of the more than $10 million of the Coalition’s HPRP funds. We obtained the
HPRP general ledgers for the period September 2009 through October 2011. The general
ledgers were organized by the Coalition’s three HPRP grants and individual accounting codes for
each of the 18 subrecipients. We reviewed all of the subrecipients’ accounts detail and randomly
selected at least one vendor for each subrecipient. Some vendors provided services for more
than one subrecipient. We randomly selected a cross section of vendors for a single subrecipient
and for multiple subrecipients. Some vendors were companies and others individuals; we also
randomly selected a cross section of company and individual names. The HPRP requirements
state that funds cannot be used for construction or rehabilitation work. We noticed only one
vendor that was a construction company, so we selected that vendor and ensured that the funds
were properly used.

The Coalition retained a small amount of the HPRP funds and directly serviced 303 client
households. We randomly selected and reviewed a sample of six of these client files. One of the
households selected originally applied for HPRP but then transferred to another program.
Therefore, we decided to select one more client. We randomly selected one household from the
five households that were not among subcategories of grants, household compositions, and
HPRP options (prevention and rapid re-housing) that were represented in the original sample.

We did not rely on computer-processed data for our audit purposes. We traced or verified each
allegation to supporting documentation to draw our conclusions.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate


                                               9
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over the accounting records for HPRP funds.
                     Controls over disbursements of HPRP funds.
                     Controls over reporting HPRP activities.
                     Controls over segregation of cash-related functions.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of the Coalition’s HPRP-related internal controls.




                                                 11
